1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

Jessica Ring Amunson
Tel +1 202 639 6023
JAmunson@jenner.com

May 20, 2020

VIA EMAIL
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Brnovich, et al. v. Democratic National Committee, et al., No. 19-1257
Arizona Republican Party, et al. v. Democratic National Committee, et al., No. 19-1258
To the Clerk of the Court:
We represent Respondent Arizona Secretary of State Katie Hobbs in the above-referenced cases.
Petitioners Mark Brnovich, et al. and Petitioners Arizona Republican Party, et al. filed their
respective petitions for a writ of certiorari on April 27, 2020, and both matters were placed on the
docket on May 1, 2020. Respondent’s brief in opposition to the petitions is due on June 1, 2010.
Pursuant to Supreme Court Rule 30.4, we write to request a thirty (30) day extension of time to
file a brief in opposition in both of the above-referenced cases.
At this point, we have received (and granted) requests for consent to file amici briefs from nine
sets of individuals or groups: (1) the State of Ohio (possibly to be joined by other States); (2) the
Arizona Governor, Senate President, and House Speaker; (3) the Republican State Leadership
Committee; (4) the Pacific Legal Foundation; (5) the Honest Elections Project; (6) the American
Constitutional Rights Union; (7) the Public Interest Legal Foundation; (8) Judicial Watch; and (9)
the Arizona Free Enterprise Club. Because these amici briefs will not be filed until June 1, 2020,
an extension of time is necessary to afford Respondent the opportunity to review and respond to
any assertions or argument made in the amici briefs.
This requested extension of time will not affect the schedule for conferencing the petitions.
Pursuant to Rule 15.5 and under the Court’s Case Distribution Schedule, the petitions would not
have been distributed for consideration before the end of this Term unless petitioners expressly
waived their 14-day waiting periods. Accordingly, this requested extension does not change the
date on which the petitions are scheduled to be conferenced, which remains September 29, 2020.
Finally, this requested extension of time is necessary to allow the undersigned counsel to review
the extensive record in this case. We were recently retained to represent Respondent Hobbs in the
Supreme Court in light of the fact that she is opposing the petition brought by the state official
who would ordinarily be charged under state law with representing her, the Arizona Attorney
General.

CHICAGO

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW.JENNER.COM

Clerk of the Court
Supreme Court of the United States
May 20, 2020
Page 2
Counsel for Petitioners Brnovich, et al., counsel for Petitioners Arizona Republican Party, et al., and
counsel for Respondent Democratic National Committee, et al. all have stated that they consent to this
request.
For these reasons, we respectfully request a thirty (30) day extension of time, until July 1, 2020, to file
a brief in opposition to both petitions.

Sincerely,

Jessica Ring Amunson
cc: All counsel of record (via email)

